CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

PLATINUM ELITE REWARDS VISA
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances

13.15%
This APR will vary with the market based on the Prime Rate.
16.15%
This APR will vary with the market based on the Prime Rate.
16.15%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None

Transaction Fees
- Foreign Transaction Fee

1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $35.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at 1-888-267-7200 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.

SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02101376-MXC20-P-2-063017 (MXC201-E)

Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 1 or more days late in making a
payment. In the event You fail to make a payment on time in any of the six billing cycles following the initial violation, You
will be charged $35.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a
Late Payment Fee, the fee will be charged to Your Account when You do not make the required minimum payment by or
within the number of days of the statement Payment Due Date set forth on this Disclosure.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Replacement Fee:
$25.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Rush Fee:
$20.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$2.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Research Fee:
$20.00 minimum per hour. If Your Account is subject to an Account Research Fee, except as limited by applicable law
and when the request is made in connection with a billing error made by the Credit Union, a fee calculated on an hourly
basis may be charged to Your Account each time you request your account to be researched.
Sales Draft Copy Fee:
$5.00 per copy. If Your Account is subject to a Sales Draft Copy Fee, except as limited by applicable law, a fee may be
charged to Your Account each time you request a sales draft copy.
Stop Payment Fee:
$28.00 per request. If Your Account is subject to a Stop Payment Fee, except as limited by applicable law, a fee may be
charged to Your Account each time you request a payment to be stopped.
Periodic Rates:
The Purchase APR is 13.15% which is a monthly periodic rate of 1.0958%.
The Balance Transfer APR is 16.15% which is a monthly periodic rate of 1.3458%.
The Cash Advance APR is 16.15% which is a monthly periodic rate of 1.3458%.
Variable Rate:
The ANNUAL PERCENTAGE RATE may increase in the future. The ANNUAL PERCENTAGE RATE is subject to change
on the first day of the billing cycle quarterly to reflect any change in the Index and will be determined by the Prime Rate on
third Tuesday of March, June, September and December, to which We add a margin. The ANNUAL PERCENTAGE
RATE will never be greater than 23.99%. Any increase in the ANNUAL PERCENTAGE RATE will result in an increase in
the amount of the interest You will pay, may increase Your minimum payment, and may increase the number of payments
to pay off Your balance. If the Index is no longer available, the Credit Union will choose a new index which is based upon
comparable information.
Margin:
Purchases will be charged at 9.90% above the Index.
Balance Transfers will be charged at 12.90% above the Index.
Cash Advances will be charged at 12.90% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02101376-MXC20-P-2-063017 (MXC201-E)

